                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




        AGREED-UPON PROCEDURES REVIEW OF
      CORPORATION FOR NATIONAL AND COMMUNITY
          SERVICE GRANTS AWARDED TO THE
          GEORGIA COMMISSION FOR SERVICE
                AND VOLUNTEERISM

                      OIG REPORT 08-03




                         Prepared by:
                  Mayer Hoffman McCann P.C.
                   12761 Darby Brooke Court
                          Suite 201
                    Woodbridge, VA 22192




This report was issued to Corporation management on March 17, 2008. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
September 17, 2008, and complete its corrective actions by March 17, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                  AGREED-UPON PROCEDURES REVIEW OF
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        GRANTS AWARDED TO THE
            GEORGIA COMMISSION FOR SERVICE AND VOLUNTEERISM

                                     Table of Contents

                                                                            Page
Executive Summary                                                            1

   Summary of Results                                                        1

   Agreed-Upon Procedures Scope                                              3

   Background                                                                4

Independent Accountants’ Report on Applying Agreed-Upon Procedures           5

   Cost and Awards Results                                                   6

      Consolidated Schedule of Award Costs                                   7

      Exhibit: Schedule of Award and Claimed Costs by Grant                  8

      Schedule A-1 – Schedule of Award and Claimed Costs, Atlanta-Fulton     10
                     Public Library

      Schedule A-2 – Schedule of Award and Claimed Costs, Communities in     11
                     Schools of Georgia

      Schedule A-3 – Schedule of Award and Claimed Costs, Inner Harbour      12
                     Hospitals, Ltd.

      Schedule A-4 – Schedule of Award and Claimed Costs, Atlanta Outward    13
                     Bound Center

      Schedule A-5 – Schedule of Award and Claimed Costs, Metro Atlanta      14
                     Task Force for the Homeless

      Schedule A-6 – Schedule of Award and Claimed Costs, Hands On           15
                     Atlanta, Inc.

      Schedule A-7 – Schedule of Award and Claimed Costs, Georgia            16
                     Commission for Service and Volunteerism

   Compliance and Internal Control                                          17

Appendix A – Georgia Commission for Service and Volunteerism’s Response
             to Draft Report
Appendix B – Corporation for National and Community Service’s
             Response to Draft Report
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures of grant cost and compliance for Corporation-funded Federal assistance
provided to the Georgia Commission for Service and Volunteerism (Commission).

                                SUMMARY OF RESULTS

The detailed results of our agreed-upon procedures are presented in the Consolidated
Schedule of Award Costs and supporting exhibit and schedules. As a result of applying our
procedures, we questioned claimed Federal-share costs of $57,451. We noted $14,496 in
exceptions related to grant match; however, we did not question these costs as the
Commission met its match requirement even after subtracting these exceptions.

A questioned cost is an alleged violation or provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of
funds; a finding that, at the time of testing, such cost was not supported by adequate
documentation; or a finding that the expenditure of funds for the intended purpose was
unnecessary or unreasonable.

Costs Claimed and Questioned

The Commission claimed total costs of $9,225,985 from October 1, 2004, through June 30,
2007. As a result of testing a judgmental sample of transactions, we questioned costs as
shown in the table on the following page.




                                             1
                                           Grant         Federal           *Grant       Education
            Description                   Number          Share             Match        Award

Costs Outside Grant Period              07CAHGA001   $        104      $            -   $           -
Costs not Included in the Original or
Amended Budgets                         05PTHGA001         34,287                   -               -
Costs not Appropriately Approved        05PTHGA001          4,900                   -               -

Unallowable Costs                       03AFHGA001            103            5,891                  -

Unallowable Costs                       03ACHGA001            238              651                  -
Excess Administrative Costs             03AFHGA001            350                   -               -
Accounting Records Less Than
Claimed Costs                           03AFHGA001          6,593            4,819                  -
Member Service Hours not met            03AFHGA001                 -                -         7,086
Member Received Excess Living
Allowance                               03AFHGA001            179               36                  -
Unapproved Time Sheets                  03AFHGA001          3,065              803            9,304
Members Contract Signed After
Start of Service                        03AFHGA001          6,884            1,979          **26,992
Member Contract Signed After Start
of Service                              06ACHGA001            748              317                  -


                                Total                $     57,451      $   *14,496      $    43,382

   * Note – The amounts shown in the table were the exceptions found during our testing. We
   did not question any match costs because the Commission fulfilled its match obligation,
   even after subtracting these costs.

   ** Note – Grant 03AFHGA001 includes an accrued interest award of $1,006 as part of the
   questioned education award.

   The procedures we performed did not result in questioned costs for Administrative Grant
   Number 04CAHGA001, Disability Grant Number 06CDHGA001, and Education Award Grant
   Number 05ESHGA001.

   AmeriCorps members who successfully complete their terms of service are eligible for
   education awards and accrued interest awards funded by the National Service Trust. These
   award amounts are not funded by Corporation grants and thus are not costs claimed by the
   Commission. As part of our agreed-upon procedures, however, we determined the effect of
   findings on education award and accrued interest eligibility. Using the same criteria
   described above, we question education awards and accrued interest awards of $43,382.




                                               2
Details related to these questioned costs appear in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures (page 5).

Compliance Issues

We found instances of non-compliance with grant provisions, regulations, or Office of
Management and Budget (OMB) requirements, as shown below under the Compliance and
Internal Control section. Issues identified included:

              Inadequate controls over recording and reporting costs;

              Late submission of Financial Status Reports (FSRs), member program
               forms, progress reports, and Periodic Expense Reports (PERs); and

              Lack of adequate procedures to ensure program compliance with criminal
               background checks; members receiving living allowance and recording hours
               before service agreements were signed; subgrantees not paying living
               allowances in equal increments; time sheets not signed by individuals with
               oversight responsibilities for the members; mid-term and end-term
               evaluations not performed; and members receiving education awards even
               though they did not complete the required minimum service hours.

Exit Conference

The contents of this report were discussed with the Corporation and the Commission at an
exit conference held in Atlanta, Georgia, on December 11, 2007. In addition, we provided a
draft of this report to the Commission and to the Corporation for comment on January 24,
2008. The Commission’s response to the findings and recommendations in the draft report
are summarized in this report and included as Appendix A. The Corporation did not respond
to the individual findings and recommendations. Its response is in Appendix B.


                        AGREED-UPON PROCEDURES SCOPE

The agreed-upon procedures covered the allowability, allocability, and reasonableness of
financial transactions claimed under funding provided by the Corporation for the following
awards, as well as grant match costs. We also performed tests to determine compliance
with grant terms and provisions. We performed our agreed-upon procedures during the
period September 4 through November 2, 2007.

           Program          Award Number             Award Period            Testing Period
Administrative              04CAHGA001           01/01/04 to 12/31/06    01/01/06 to 12/31/06
Administrative              07CAHGA001           01/01/07 to 12/31/09    01/01/07 to 06/30/07
PDAT                        05PTHGA001           01/01/05 to 12/31/07    07/01/05 to 06/30/07
Disability                  06CDHGA001           01/01/06 to 12/31/08    01/01/06 to 06/30/07
Education Award             05ESHGA001           08/23/05 to 08/22/08    08/23/05 to 06/30/07
AmeriCorps – Formula        03AFHGA001           09/05/03 to 09/04/06    09/05/04 to 09/04/06
AmeriCorps – Competitive    03ACHGA001           07/31/03 to 07/30/06    04/01/05 to 07/30/06
AmeriCorps – Competitive    06ACHGA001           07/15/06 to 07/14/09    10/01/06 to 03/31/07




                                             3
The OIG’s agreed-upon procedures program, dated February 2007, provides for
understanding the Commission; reconciling costs claimed and match costs to accounting
records; testing compliance provisions of the grant; and testing claimed grant and match
costs. These procedures are described in more detail on page 5 in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

                                      BACKGROUND

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State commissions, such
as the Georgia Commission for Service and Volunteerism, and other entities to assist in the
creation of full-time and part-time national and community service programs.

The Georgia Commission is located in Atlanta, Georgia, and is a part of the Georgia
Department of Community Affairs within the hierarchy of the State government. The
Commission employs one Executive Director, five full-time and one part-time staff. The
Commission has been in transition for the last year-and-a-half and has had four different
Executive Directors within that time span.

The Commission relies on the Department of Community Affairs to provide accounting data
for preparing Financial Status Reports (FSRs). It also uses the State’s payroll and human
resource division. Disbursements and procurement of goods follow the same process as
other State agencies with approval from the Executive Director. Administrative costs are
allocated via a Statewide Allocation Plan and spread to all Federal grants.

As illustrated in the following table, the Commission received about $15.8 million in funding
for various Corporation programs. The claimed and tested costs are approximately
$9.2 million. Of the amount of funding received, the Commission awarded approximately
$14.2 million to its AmeriCorps subgrantees, including localities and nonprofit entities.

                                                                         Claimed
                                                          Funding       Within Audit
               Corporation Grants                        Authorized        Period
       03AFHGA001 – AmeriCorps Formula                 $ 6,358,058      $ 4,877,710
       03ACHGA001 – AmeriCorps Competitive                5,631,136        2,370,122
       06ACHGA001 – AmeriCorps Competitive                2,221,110        1,281,718
                              Total AmeriCorps         $ 14,210,304     $ 8,529,550

       04CAHGA001 – Administrative                          742,017          264,375

       07CAHGA001 – Administrative                          322,595          103,033

       05PTHGA001 – PDAT                                    414,905          295,301

       06CDHGA001 – Disability                              107,000           32,069

       05ESHGA001 – Education Award                            2,000            1,657

                       Total – Grants Administered     $ 15,798,821      $ 9,225,985




                                              4
                Conrad Government Services Division



 Inspector General
 Corporation for National and Community Service

                               INDEPENDENT ACCOUNTANTS’ REPORT ON
                                APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the OIG,
 solely to assist it in grant-cost and compliance testing of Corporation-funded Federal
 assistance provided to the Commission for the awards and periods listed below. This
 agreed-upon procedures engagement was performed in accordance with standards
 established by the American Institute of Certified Public Accountants and generally accepted
 government auditing standards. The sufficiency of these procedures is solely the
 responsibility of the OIG. Consequently, we make no representation regarding the
 sufficiency of the procedures described below, either for the purpose for which this report
 has been requested or any other purpose.

        Program                 Award Number                Award Period                Testing Period
Administrative                  04CAHGA001              01/01/04 to 12/31/06        01/01/06 to 12/31/06
Administrative                  07CAHGA001              01/01/07 to 12/31/09        01/01/07 to 06/30/07
PDAT                            05PTHGA001              01/01/05 to 12/31/07        07/01/05 to 06/30/07
Disability                      06CDHGA001              01/01/06 to 12/31/08        01/01/06 to 06/30/07
Education Award                 05ESHGA001              08/23/05 to 08/22/08        08/23/05 to 06/30/07
AmeriCorps – Formula            03AFHGA001              09/05/03 to 09/04/06        10/01/04 to 09/04/06
AmeriCorps – Competitive        03ACHGA001              07/31/03 to 07/30/06        04/01/05 to 07/30/06
AmeriCorps – Competitive        06ACHGA001              07/15/06 to 07/14/09        10/01/06 to 03/31/07

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not
 express such an opinion. Had we performed other procedures, other matters might have
 come to our attention that would have been reported to you.

 The procedures that we performed included:

           Obtaining an understanding of the Commission and its subgrantee monitoring
            process.

           Reconciling grant costs claimed and match costs to the accounting systems of
            the Commission and of selected subgrantees in our sample.

           Testing subgrantee member files to verify that the records supported member
            eligibility to serve and allowability of living allowances and education awards.

           Testing compliance of the Commission and a sample of subgrantees with certain
            grant provisions and award terms and conditions.

        2301 Dupont Drive, Suite 200  Irvine, California 92612  949-474-2020 ph  949-263-5520 fx
   12761 Darby Brooke Court, Suite 201  Woodbridge, Virginia 22192  703-491-9830 ph  703-491-9833 fx


                                                    5
          Testing claimed grant costs and match costs of the Commission and a sample of
           subgrantees to ensure:

           i.   Proper recording of the AmeriCorps grants, Administrative grant, PDAT grant,
                Disability Placement grant, and Education Award grant;

           ii. Costs were properly matched; and

           iii. Costs were allowable and supported in accordance with applicable
                regulations, OMB circulars, grant provisions, and award terms and conditions.

Testing resulted in questioned costs, questioned education awards, and instances of
noncompliance with grant terms. The testing results for costs follow in the Cost and Awards
Section and are summarized in the Consolidated Schedule of Award Costs and the exhibit
and schedules. We also found instances of noncompliance with grant provisions,
regulations, or OMB requirements, as shown in the Compliance and Internal Control section.
Issues identified included:

               Inadequate controls over recording and reporting costs;

               Late submission of Financial Status Reports (FSRs), member program
                forms, progress reports, and Periodic Expense Reports (PERs); and

               Lack of adequate procedures to ensure program compliance with criminal
                background checks; members receiving living allowance and recording hours
                before service agreements were signed; subgrantees not paying living
                allowances in equal increments; time sheets not signed by individuals with
                oversight responsibilities for the members; mid-term and end-term
                evaluations not performed; and members receiving education awards even
                though they did not complete the required minimum service hours.

Cost and Award Results

The following schedules and exhibit provide the results of testing costs claimed.




                                              6
                               Consolidated Schedule of Award Costs
                      Corporation for National and Community Service Awards
                         Georgia Commission for Service and Volunteerism

                                   October 1, 2004, to June 30, 2007

                                                                                    Questioned
                                       Approved                       Questioned    Education
Award Number        Program             Budget     Claimed Costs        Costs        Awards      Reference

03AFHGA001     AmeriCorps-         $ 6,972,711       $ 4,877,710       $ 17,174     $ *43,382     Exhibit
               Formula
03ACHGA001     AmeriCorps-             5,631,136          2,370,122          238             -    Exhibit
               Competitive
06ACHGA001     AmeriCorps-             2,221,110          1,281,718          748             -    Exhibit
               Competitive
               Total AmeriCorps    $14,824,957       $ 8,529,550       $ 18,160      $       -


04CAHGA001     Administrative      $     742,017     $     264,375     $        -    $       -

07CAHGA001     Administrative            322,595           103,033           104             -    Exhibit

05PTHGA001     PDAT                      414,905           295,301         39,187            -    Exhibit

06CDHGA001     Disability                107,000            32,069              -            -

05ESHGA001     Education Award             2,000              1,657             -            -

                            Totals $16,362,474          $ 9,225,985    $ 57,451      $ *43,382


       * This amount includes a $1,006 Accrued Interest Award questioned.

                            Notes to Consolidated Schedule of Award Costs

       Basis of Accounting
       The accompanying schedules have been prepared to comply with provisions of the grant
       agreements between the Corporation and the Commission. The information presented in
       the schedules has been prepared from reports submitted by the Commission to the
       Corporation and accounting records of the Commission and its subgrantees. The basis of
       accounting used in the preparation of these reports differs from accounting principles
       generally accepted in the United States of America as discussed below.

       Equipment
       No equipment was purchased and claimed under Federal or grantee share of cost for the
       period within our audit scope.

       Inventory
       Minor materials and supplies are charged to expenses during the period of purchase.



                                                    7
                                                                                              EXHIBIT
                              Schedule of Awards and Claimed Costs by Grant
                             Georgia Commission for Service and Volunteerism
                                     October 1, 2004, to June 30, 2007
                                                                                   Questioned
                                                            Claimed   Questioned   Education
                      Awards                                 Costs      Costs       Awards           Reference

              03AFHGA001 – Formula
Atlanta-Fulton Public Library *                         $ 152,249       $    898     $ 7,086        Schedule A-1
Communities in Schools of Georgia *                        656,721         2,235       14,172       Schedule A-2
Inner Harbour Hospitals, Ltd. *                            435,643         6,696            -       Schedule A-3
Atlanta Outward Bound Center *                             379,029           545        4,725       Schedule A-4
Metro Atlanta Task Force for the Homeless *                452,195         6,800     **17,399       Schedule A-5
Board of Regents of the University System of Georgia       390,596             -            -
City of Macon, Macon Police Department                     443,333             -            -
Troup Council on Aging, Inc.                               580,158             -            -
Fund for Southern Communities                               72,149             -            -
Fannin County Family Connection                            492,206             -            -
Boys & Girls Club of Northeast Georgia                      93,608             -            -
Cobb Housing, Inc.                                         221,625             -            -
Habitat for Humanity International                         381,977             -            -
Albany State University                                    122,761             -            -
Chatham-Savannah Authority for the Homeless                318,333         _   -        _ -
                                            Sub-total   $5,192,583      $ 17,174     $ 43,382

           03ACHGA001 – Competitive
Hands On Atlanta, Inc. *                                $1,876,395      $    238      $         - Schedule A-6
Mid State Children’s Challenge Projects                    494,445             -          _     -
                                            Sub-total   $2,370,840      $    238      $         -

           06ACHGA001 – Competitive
Hands On Atlanta, Inc. *                                $1,061,381      $    748      $         - Schedule A-6
Jump Start Georgia                                          88,011
Mid State Children’s Challenge Projects                    132,326             -          _     -
                                            Sub-total   $1,281,718      $    748      $         -
                                                        1
                                  Subgrantee’s Total    $7,026,689      $ 18,160     $ 43,382

                Commission Awards
Administrative (04CAHGA001)                             $ 264,375        $     -      $         -   Schedule A-7
Administrative (07CAHGA001)                               103,033            104                -   Schedule A-7
PDAT (05PTHGA001)                                         295,301         39,187                -   Schedule A-7
Disability (06CDHGA001                                     32,069              -                -   Schedule A-7
Education Award (05ESHGA001)                                1,657              -                -
                               Commission Total         $ 696,435       $ 39,291      $         -

           *Selected for Application of Agreed-Upon Procedures
           ** This amount includes a $1,006 Accrued Interest Award questioned.
           1
             Amounts for the Formula and Competitive grants shown in this Exhibit are based on FSRs
           submitted by subgrantees to the Commission. The subgrantees reported their claimed


                                                        8
costs within the FSR reporting period for each program year. However, the Commission’s
FSRs submitted to the Corporation for the 2003-2004 program year did not include any cost
claimed. These costs were reported during the 2004-2005 program year. Our audit scope
was comprised of the 2004-2005 and 2005-2006 program years of the grant, and since the
2003-2004 claimed costs were reported within the 2004-2005 program year these costs
were included within the AUP step requiring a reconciliation of the final FSR. Therefore, the
tables on pages 4 and 7 will not agree to this Exhibit. Additionally, the claimed costs within
this Exhibit will not agree to the amount in each Schedule because the amounts audited for
each subgrantee were based on the FSR submitted by the subgrantee to the Commission.




                                              9
                                                                          Schedule A-1
                                                                            Page 1 of 1

                        Schedule of Award and Claimed Costs
                            Atlanta-Fulton Public Library

                               Award 03AFHGA001006


                                                                                Reference

Approved Budget (Federal Funds)                                     $143,532      Note 1

Claimed Federal Costs                                               $ 90,960      Note 2

Questioned Costs:
   Unapproved Time Sheets                                 $   719                 Note 3
   Excess Living Allowance                                    179                 Note 4
    Total Questioned Costs                                          $     898

Questioned Education Awards:
   Unapproved Time Sheets                                 $ 4,724                 Note 3
   Minimum Service Hours Not Met                            2,362                 Note 5
    Total Questioned Education Awards                               $   7,086

Notes

1. The amount shown above as Approved Budget represents the total funding to Atlanta-
   Fulton Public Library according to the subgrantee agreements.

2. Claimed Federal costs represent Atlanta-Fulton Public Library’s reported expenditures
   for the period October 1, 2004, through September 30, 2006.

3. Member time sheets were not always properly approved, which resulted in questioned
   living allowances and education awards (see Finding 3).

4. One member was paid an additional living allowance after the member concluded her
   term of service (see Finding 3).

5. One member did not serve the minimum service hours required to earn an education
   award (see Finding 3).




                                           10
                                                                            Schedule A-2
                                                                              Page 1 of 1

                        Schedule of Award and Claimed Costs
                         Communities in Schools of Georgia

                    Awards 03AFHGA0010001 & 03AFHGA0010015


                                                                               Reference

Approved Budget (Federal Funds)                                 $605,174          Note 1

Claimed Federal Costs                                           $517,779          Note 2

Questioned Costs:
   Unapproved Time Sheets                           $     191                     Note 3
   Member Contract Signed After Start of Service        1,710                     Note 4
   Excess Administrative Costs                            334                     Note 5
    Total Questioned Costs                                      $   2,235

Questioned Education Awards:
   Unapproved Time Sheets                           $ 2,362                       Note 3
   Member Contract Signed After Start of Service      7,086                       Note 4
   Minimum Service Hours Not Met                      4,724                       Note 6
Total Questioned Education Awards                               $ 14,172

Notes

1. The amount shown above as Approved Budget represents the total funding to
   Communities in Schools of Georgia according to the subgrantee agreements.

2. Claimed costs represent Communities in Schools of Georgia’s reported Federal
   expenditures for the period October 1, 2004, through September 30, 2006.

3. Member time sheets were not always properly approved, which resulted in questioned
   living allowances and education awards (see Finding 3).

4. One member contract was not signed prior to the member’s start date which resulted in
   questioned living allowances (see Finding 3).

5. Administrative costs (5.26 percent of other costs) were exceeded during program year
   2004-2005 (see Finding 1).

6. Two members did not serve the minimum service hours required to earn an education
   award (see Finding 3).




                                           11
                                                                             Schedule A-3
                                                                               Page 1 of 1

                        Schedule of Award and Claimed Costs
                            Inner Harbour Hospitals, Ltd.

                               Award 03AFHGA0010010


                                                                                Reference

Approved Budget (Federal Funds)                                 $ 374,120          Note 1

Claimed Federal Costs                                           $ 323,776          Note 2

Questioned Costs:
   Unallowable Costs                                $     103                      Note 3
   Accounting Records less than Claimed Costs           6,593                      Note 4
    Total Questioned Costs                                      $    6,696

Notes

1. The amount shown above as Approved Budget represents the total funding to Inner
   Harbour Hospitals, Ltd. according to the subgrantee agreements.

2. Claimed costs represent Inner Harbour Hospitals’ reported Federal expenditures for the
   period October 1, 2004, through September 30, 2006.

3. Unallowable rent and entertainment costs were claimed (see Finding 1).

4. The accounting records did not support the amount claimed on the PERs (see Finding
   1). This resulted in an overstatement of claimed costs in program year 2004-2005.




                                           12
                                                                            Schedule A-4
                                                                              Page 1 of 1

                        Schedule of Award and Claimed Costs
                           Atlanta Outward Bound Center

                               Award 03AFHGA0010002


                                                                               Reference

Approved Budget (Federal Funds)                                $ 297,974          Note 1

Claimed Federal Costs                                          $ 261,254          Note 2

Questioned Costs:
   Member Contract Signed After Start of Service   $    545                       Note 3
    Total Questioned Costs                                     $      545

Total Questioned Education Awards                              $    4,725         Note 3

Notes

   1. The amount shown above as Approved Budget represents the total funding to
      Atlanta Outward Bound Center according to the subgrantee agreements.

   2. Claimed costs represent the Atlanta Outward Bound Center’s reported Federal
      expenditures for the period October 1, 2004, through September 30, 2006.

   3. One member contract was not signed prior to the member’s start date which resulted
      in questioned living allowances (see Finding 3).




                                           13
                                                                             Schedule A-5
                                                                               Page 1 of 1

                         Schedule of Award and Claimed Costs
                        Metro Atlanta Task Force for the Homeless

                                Award 03AFHGA0010007


                                                                                Reference

Approved Budget (Federal Funds)                               $ 395,732            Note 1

Claimed Federal Costs                                         $ 303,508            Note 2

Questioned Costs:
   Unapproved Time Sheets                           $ 2,155                        Note 3
   Member Contract Signed After Start of Service      4,629                        Note 4
   Excess Administrative Costs                           16                        Note 5
    Total Questioned Costs                                    $      6,800

Questioned Education Awards:
   Unapproved Time Sheet                            $ 2,218                        Note 3
   Member Contract Signed After Start of Service     15,181                        Note 4
Total Questioned Education Awards                             $     16,393

Notes

1. The amount shown above as Approved Budget represents the total funding to Metro
   Atlanta Task Force for the Homeless according to the subgrantee agreements.

2. Claimed costs represent the Metro Atlanta Task Force for the Homeless’ reported
   Federal expenditures for the period October 1, 2004, through September 30, 2006.

3. Member time sheets were not always properly approved, which resulted in questioned
   living allowances and education awards (see Finding 3).

4. Contract for three of the four members tested were not signed prior to the members’
   start date which resulted in questioned living allowances (see Finding 3).

5. Administrative costs (5.26 percent of other costs) were exceeded during program year
   2005-2006 (see Finding 1).




                                           14
                                                                            Schedule A-6
                                                                              Page 1 of 1

                        Schedule of Award and Claimed Costs
                               Hands On Atlanta, Inc.

                  Awards 03ACHGA0010001 and 06ACHGA0010003


                                                                               Reference

Approved Budget (Federal Funds)                                $3,379,556         Note 1

Claimed Federal Costs                                          $2,938,772         Note 2

Questioned Costs:
   Contract Signed After Start of Service          $    748                       Note 3
    (06ACHGA0010003)
   Unallowable Costs (03ACHGA0010001)                   238                       Note 4
    Total Questioned Costs                                     $      986

Notes

1. The amount shown above as Approved Budget represents the total funding to Hands On
   Atlanta, Inc. according to the subgrantee agreements.

2. Claimed costs represent Hands On Atlanta’s reported Federal expenditures for the
   period April 1, 2004, through March 31, 2007.

3. One member contract was not signed prior to the member’s start date which resulted in
   questioned living allowances (see Finding 3).

4. Unallowable entertainment costs were claimed (see Finding 1).




                                            15
                                                                                Schedule A-7
                                                                                  Page 1 of 1

                        Schedule of Award and Claimed Costs
                   Georgia Commission for Service and Volunteerism

Awards 04CAHGA001, 07CAHGA001, 05PTHGA001, 06CDHGA001, and 05ESHGA001


                                                                                   Reference

Approved Budget (Federal Funds)                                    $1,588,517         Note 1

Claimed Federal Costs                                              $ 696,435          Note 2

Questioned Costs:
   Costs Incurred Before Award (07CAHGA001)           $     104                       Note 3
   Costs not Included in the Original
    or Amended Budgets (05PTHGA001)                       34,287                      Note 4
   Costs not Appropriately Approved
    (05PTHGA001)                                           4,900                      Note 5
    Total Questioned Costs                                         $   39,291

Notes

1. The amount shown above as Approved Budget represents the total funding to the
   Georgia Commission for Service and Volunteerism according to the grant award
   documents.

2. Claimed costs represent the Georgia Commission for Service and Volunteerism’s
   reported Federal expenditures for the period July 1, 2005, through June 30, 2007.

3. Costs of $104 were claimed to the Administrative grants prior to the start of the program.
   Also, unallowable costs for member recognition were claimed (see Finding 1).

4. Unallowable costs for services that were not part of the original or amended budgets
   were claimed to the PDAT grants (see Finding 1).

5. Costs paid to a nonprofit entity (Georgia Serves), in which the Commission’s former
   Executive Director is the CFO, were authorized solely by him (see Finding 1).




                                             16
                            Compliance and Internal Control

In addition to the costs and award results described in the Consolidated Schedules of Award
Costs, results of our tests disclosed instances of noncompliance and deficiencies in internal
controls.

Finding No. 1 – Inadequate Controls Over Recording and Reporting of Costs

Fieldwork at the Commission and subgrantee locations revealed inadequate controls, or
established controls that were not fully implemented. We identified the weaknesses at the
Commission and some tested subgrantees, as follows:

Georgia Commission for Service and Volunteerism (Commission). While performing
the reconciliation for the 2003 Formula grant, we were not able to trace the claimed costs
from the FSR reported to the Corporation by the Commission to the individual FSRs
submitted to the Commission by its subgrantees. The Commission reported $4,877,710 as
claimed costs to the Corporation for the period ending 09/04/06; however, the Commission’s
subgrantees reported a total of $5,192,583 in claimed costs to the Commission. The
Commission stated that this difference relates to the cost claimed by the subgrantees during
the 03-04 program year that will be reflected in their final FSR. A similar issue was noted
while reconciling the 2003 Competitive grant. The amount reported in the FSR submitted to
the Corporation, for the period ending 7/30/06, was $2,370,122 while the individual
subgrantees’ FSRs totaled $2,370,840.

Though the Commission reported these costs to the Corporation, the Commission was not
able to provide documentation to support the claimed costs they reported to the Corporation.
The Commission uses an outdated manual process for compiling the subgrantees FSRs
which is susceptible to errors and omission of numbers.

The Commission claimed $104 to the 2007 Administrative grant for food expenses that were
incurred prior to the start of the program. Food was purchased from Honey Baked Ham for
a Commission board meeting on November 8, 2006. However, payment for the food
expenses was not processed until January 2007. Accounting personnel charged the
expenses to the wrong grant.

The Commission made payments in the amount of $4,900 to a non-profit organization,
Georgia Serves. The Commission’s former executive director is shown in Georgia state
records as the entity’s Chief Financial Officer. The payments processed through the
Commission were authorized solely by that executive director. These transactions should
have been authorized by someone else at the Commission with no interest in the non-profit
organization. In a more detailed review of the Commission’s general ledger, we found 17
additional invoices that were paid to this entity, totaling $32,750. The Commission could not
provide supporting documentation for these expenditures, and Georgia Serves’ financial
records were not available, as noted below.

Georgia Serves was created in the late 1990s by the Commission’s former executive
director as a fund raising entity. For a period of time, continued funding of Commission
activities by the Corporation was uncertain; therefore, this entity was created to manage the
Commission’s fund raising efforts to continue supporting its subgrantees. Corporation
funding was curtailed for several months but resumed thereafter, leading to a change of

                                             17
mission for Georgia Serves. It then became a vehicle for coordinating conferences and
training events.

We interviewed the Commission’s current executive director and other staff but were unable
to obtain any further financial information for Georgia Serves. We were told that financial
records are being held by the former executive director (now retired) at his home near
Atlanta. Commission personnel did not know when or if the records would be returned to
the Commission. We were further informed that because Georgia Serves had no
employees of its own, Commission personnel were used to arrange the training
conferences, but we were not able to determine specifically which employees and how
many hours were devoted to those activities. The time spent by Commission employees
performing work for Georgia Serves is unallowable because these costs are not allocable.
We also question the costs as unallowable professional service costs. Without any
employees or contracts, invoices, or other documentation, we cannot determine if the
training was performed by professionals meeting the requirements of OMB Circular A-87,
Item 32.

We further noted that the Commission paid for services in the amount of $34,287 that were
not included in their original or amended budgets. These costs would have been allowable
under the Admin-PDAT-Disability Provisions if the grantee would have requested written
authorization from the Corporation.

Criteria

AmeriCorps Provisions, V, General Provisions, B., Financial Management Standards, states
in part:
         1. General. The grantee must maintain financial management systems that include
         standard accounting practices, sufficient internal controls, a clear audit trail and
         written cost allocation procedures as necessary. Financial management systems
         must be capable of distinguishing expenditures attributable to this Grant from
         expenditures not attributable to this Grant. This system must be able to identify
         costs by programmatic year and by budget category and to differentiate between
         direct and indirect costs or administrative costs.

The attachments to OMB Circular A-87, Cost Principles for State, Local, and Indian tribal
Governments, provides applicable criteria, as follows:

Attachment A, General Principles for Determining Allowable Costs, Section C, Basic
Guidelines, states in part:

           2. Reasonable costs. A cost is reasonable if, in its nature or amount, it does
           not exceed that which would be incurred by a prudent person under the
           circumstances prevailing at the time the decision was made to incur the
           costs. The question of the reasonableness of specific costs must be
           scrutinized with particular care in connection with organizations or separate
           divisions thereof which receive the preponderance of their support from
           awards made by Federal agencies. In determining the reasonableness of a
           given cost, consideration shall be given to:



                                                18
       (b) The restraints or requirements given imposed by such factors as: sound
       business practices; arms length bargaining, Federal, State and other laws
       and regulations; and terms and conditions of the Federal award.

       (d) Whether the individual concerned acted with prudence in the
       circumstances considering their responsibilities to the governmental unit, its
       employees, the public at large, and the Federal Government.

       3. Allocable Costs.
       a. A cost is allocable to a particular cost objective if the goods or services
       involved are chargeable or assignable to such cost objective in accordance
       with relative benefits received.

Attachment B, Selected Items of Cost, states in part:

       31. Pre-award costs. Pre-award costs are those incurred prior to the effective
       date of the award directly pursuant to the negotiation and in anticipation of
       the award where such costs are necessary to comply with the proposed
       delivery schedule or period of performance. Such costs are allowable only to
       the extent that they would have been allowable if incurred after the date of
       the award and only with the written approval of the awarding agency.

       32. Professional service costs.

       a. Costs of professional or consultant services rendered by persons who are
       members of a particular profession or posses a special skill, and who are not officers
       or employees of the governmental unit, are allowable, subject to subparagraphs b
       and c when reasonable in relation to the services rendered and when non contingent
       upon recovery of the costs from the Federal Government.

       In addition, legal and related services are limited under Attachment B, section 10.

       b. In determining the allowability of costs in a particular case, no single factor or any
       special combination of factors is necessarily determinate. However, the following
       factors are relevant:

           (1) The nature and scope of the service rendered in relation to the service
           required.

           (2) The necessity of contracting for the service, considering the governmental
           unit’s capability in the particular area.

           (3) The past pattern of such costs, particularly in the years prior to Federal
           awards.

           (4) The impact of Federal awards on the governmental unit’s business (i.e., what
           new problems have arisen).

           (5) Whether the proportion of Federal work to the governmental unit’s total
           business is such as to influence the governmental unit in favor of incurring the
                                              19
              cost, particularly where the services rendered are not of a continuing nature and
              have little relationship to work under Federal grants and contracts.

              (6) Whether the service can be performed more economically by direct
              employment rather than contracting.

              (7) The qualifications of the individual or concern rendering the service and the
              customary fees charged, especially on non-Federal awards.

              (8) Adequacy of the contractual agreement for the service (e.g., description of
              the service, estimate of time required, rate of compensation, and termination
              provisions).

           c. In addition to the factors in subparagraph b, retainer fees to be allowable must be
           supported by available or rendered evidence of bona fide services.

Admin-PDAT-Disability Provisions, B, Special Provisions, 1., Purpose of the Program
Development Assistance and Training (PDAT) Award, states in part:

           d. Member/participant training for a single local program should be funded from the
             sub-grantee’s budget. Exceptional circumstances requiring PDAT resources to
             support member training in a single program may be allowed.

Admin-PDAT-Disability Provisions, B, Special Provisions, 4., Budget and Programmatic
Changes, states in part:

           b. Changes in the Budget. The Grantee must obtain the prior written
           approval of the Corporation’s Office of Grants Management before deviating
           from the approved budget.

Communities in Schools of Georgia (CIS). For program year 2004-2005, CIS over
claimed administrative costs for the Digital Opportunity program by $334. CIS claimed costs
at the budgeted amount and not at 5.26 percent of actual other expenses.

Criteria

2004 AmeriCorps Provisions, C., General Provisions, Item 23., Administrative Cost, states in
part:
      c. Fixed 5%. If approved on a case-by-case basis by the Corporation, the grantee
      may charge, for administrative costs, a fixed 5% of the total of the Corporation funds
      expended. In order to charge this fixed 5%, the grantee match for administrative
      costs may not exceed 10% of all direct costs expenditures. These rates may be
      used without supporting documentation and are in lieu of an indirect cost rate.

Inner Harbour Hospitals, Ltd. (Inner Harbour). Inner Harbour’s accounting records do not
support the amount reported on the PERs. The accounting records are used by the
program manager to determine what is billable versus what is non-billable, but the
methodology could not be determined as to how the claimed costs were derived. Inner
Harbour claimed labor costs (salaries and fringe benefits) at an allocation percentage
instead of costs of actual labor performed, but we could not determine how other costs were
                                                 20
claimed. This resulted in an overstatement of claimed costs in program year 2004-2005 of
$6,593, which is the net effect of all expense categories. Claimed costs were understated in
program year 2005-2006; therefore, we did not question any costs during that year.

Time sheets were maintained that showed labor distribution to each program; however,
allocation percentages were determined and used to claim fringe benefit expenses. Inner
Harbour has actual costs by employee for FICA and 401K retirement expenses, and other
fringe benefit expenses (i.e., unemployment compensation, life insurance, tuition
reimbursement, employee assistance, healthcare, etc.) split evenly between employees.
Based on this, each employee’s fringe benefits are charged to the program at a flat rate as
opposed to actual costs.

For program year 2004-2005, 3 of the 20 tested transactions were unallowable. One
transaction for rent was charged as in-kind match. Inner Harbour determined a monthly rent
expense for space used for the AmeriCorps program, even though Inner Harbour owns the
property. The amount charged for space is limited to actual cost. The other two
transactions were for entertainment activities. Atlanta Braves tickets were purchased for
$40, and bowling activities for an AmeriCorps member costing $63 were charged. We
consider these to be unallowable entertainment expenses.

Criteria

AmeriCorps Provisions, V, General Provisions, B., Financial Management Standards, states
in part:
         1. General. The grantee must maintain financial management systems that include
         standard accounting practices, sufficient internal controls, a clear audit trail and
         written cost allocation procedures as necessary. Financial management systems
         must be capable of distinguishing expenditures attributable to this Grant from
         expenditures not attributable to this Grant. This system must be able to identify
         costs by programmatic year and by budget category and to differentiate between
         direct and indirect costs or administrative costs.

The attachments to OMB Circular A-122, Cost Principles for Non-Profit Organizations,
provides applicable criteria, as follows:

Attachment A, General Principles, A., Basic Considerations, Section 2., Factors affecting
allowability of costs, states in part:

           To be allowable under an award, costs must meet the following criteria:
           (g) Be adequately documented.

Attachment B, Selected Items of Cost, Section 7., Compensation for personal services,
states in part:

           m. Support of salaries and wages:

           2. (a) The reports must reflect an after-the-fact determination of the actual
           activity of each employee. Budget estimates (i.e., estimates determined
           before the services are performed) do not qualify as supports for charges to
           awards.

                                                21
Attachment B, Selected Items of Cost, Section 14., Entertainment Costs, states:

     Costs of entertainment, including amusement, diversion, and social activities
     and any costs directly associated with such costs (such as tickets to shows or
     sports events, meals, lodging, rentals, transportation, and gratuities) are
     unallowable.

     Section 46, Rental Costs, states:

     b. Rental costs under sale and leaseback arrangements are allowable only up
     to the amount that would be allowed had the organization continued to own the
     property.

     c. Rental costs under less-than-arms-length leases are allowable only up to the
     amount that would be allowed had title to the property vested in the
     organization. For this purpose, a less-than-arms-length lease is one under
     which one party to the lease agreement is able to control or substantially
     influence the actions of the other. Such leases include, but are not limited to,
     those between (i) divisions of an organization; (ii) organizations under common
     control through common officers, directors, or members; and (iii) an
     organization and a director, trustee, officer, or key employee of the organization
     or his immediate family either directly or through corporations, trusts, or similar
     arrangements in which they hold a controlling interest.

2004 AmeriCorps Provisions, C., General Provisions, Item 22., Financial Management
Provisions, states in part:

       b. Source Documentation. The Grantee must maintain adequate supporting
       documents for its expenditures (federal and non-federal) and in-kind contributions
       made under this Grant. Costs must be shown in books or records (e.g., a
       disbursement ledger or journal), and must be supported by a source document, such
       as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

Atlanta Outward Bound Center (AOB). AOB does not have an accounting system in
place that includes standard accounting practices or provides a clear audit trail. We
determined that preparation of the PER was accomplished by manually extracting data from
invoices and handwritten calculations. We also determined that there is no comparison of
actual costs versus budgeted costs until the data is recorded in the PER. Lastly, costs
recorded to the “Other” cost category sometimes had to be reconstructed for the periods
under review because costs were charged to the wrong category.

Salaries of AOB employees charging time to the AmeriCorps grant were not supported by
time sheets in accordance with grant provisions and OMB Circular A-122, Cost Principles for
Non-Profit Organizations. Time sheets were not maintained that showed the labor
distribution to each program. Time for three employees was charged to the program. AOB
claimed labor costs to the program at an allocation percentage instead of costs of actual
labor performed for one of the individuals, while the other two were charged 100 percent as
they worked exclusively for the AmeriCorps program. We did not question the costs for the
improper charging of AOB employees because we were able to perform alternative
procedures to accept the labor charges. AOB representatives stated that they started

                                              22
completing time sheets for program year 2007, as instructed by the Commission during one
of its monitoring visits.

AOB claimed rent payments as match for its facilities, but the rental agreement does not
specify a dollar amount to be paid for the space. AOB expressed that it has been renting
the space for a long time and has a verbal agreement with the landlord regarding the rent
amount to be paid.

Certain matching costs charged to the grant did not provide any benefit to the program.
Proper controls were not in place to ensure that only allowable and allocable costs were
being claimed to the grant. However, these costs were not questioned because the
Commission satisfied its match requirement even after subtracting these costs.

Criteria

AmeriCorps Provisions, V, General Provisions, B., Financial Management Standards, states
in part:
         1. General. The grantee must maintain financial management systems that include
         standard accounting practices, sufficient internal controls, a clear audit trail and
         written cost allocation procedures as necessary. Financial management systems
         must be capable of distinguishing expenditures attributable to this Grant from
         expenditures not attributable to this Grant. This system must be able to identify
         costs by programmatic year and by budget category and to differentiate between
         direct and indirect costs or administrative costs.

OMB Circular A-122, Attachment A, General Principles, A., Basic Considerations, Section
2., Factors affecting allowability of costs, states in part:

           To be allowable under an award, costs must meet the following criteria:
           (a) Be reasonable for the performance of the award and be allocable thereto
           under these principles.
           (g) Be adequately documented.

Attachment B, Selected Items of Cost, Section 7., Compensation for personal services,
states in part:

           m. Support of salaries and wages:

                  (1) Charges to awards for salaries and wages, whether treated as direct costs
                  or indirect costs, will be based on documented payrolls approved by a
                  responsible official(s) of the organization. The distribution of salaries and
                  wages to awards must be supported by personnel activity reports, as
                  prescribed in subparagraph (2), except when a substitute system has been
                  approved in writing by the cognizant agency. (See subparagraph E.2 of
                  Attachment A.)
                  (2) Reports reflecting the distribution of activity of each employee must be
                  maintained for all staff members (professionals and nonprofessionals) whose
                  compensation is charged, in whole or in part, directly to awards. In addition,
                  in order to support the allocation of indirect costs, such reports must also be
                  maintained for other employees whose work involves two or more functions

                                                23
             or activities if a distribution of their compensation between such functions or
             activities is needed in the determination of the organization's indirect cost
             rate(s) (e.g., an employee engaged part-time in indirect cost activities and
             part-time in a direct function). Reports maintained by non-profit organizations
             to satisfy these requirements must meet the following standards:

             (a) The reports must reflect an after-the-fact determination of the actual
             activity of each employee. Budget estimates (i.e., estimates determined
             before the services are performed) do not qualify as support for charges to
             awards.

             (b) Each report must account for the total activity for which employees are
             compensated and which is required in fulfillment of their obligations to the
             organization.

             (c) The reports must be signed by the individual employee, or by a
             responsible supervisory official having first hand knowledge of the activities
             performed by the employee, that the distribution of activity represents a
             reasonable estimate of the actual work performed by the employee during the
             periods covered by the reports.

             (d) The reports must be prepared at least monthly and must coincide with one
             or more pay periods.

             (3) Charges for the salaries and wages of nonprofessional employees, in
             addition to the supporting documentation described in subparagraphs (1)
             and (2), must also be supported by records indicating the total number of
             hours worked each day maintained in conformance with Department of Labor
             regulations implementing the Fair Labor Standards Act (FLSA) (29 CFR Part
             516). For this purpose, the term "nonprofessional employee" shall have the
             same meaning as "nonexempt employee," under FLSA.

             (4) Salaries and wages of employees used in meeting cost sharing or
             matching requirements on awards must be supported in the same manner as
             salaries and wages claimed for reimbursement from awarding agencies.

Metro Atlanta Task Force for the Homeless (Task Force). For program year 2005-2006,
Task Force over claimed administrative costs by $16. Task Force claimed costs at the
budgeted amount, not at 5.26 percent of actual other expenses.




                                           24
Criteria

2004 AmeriCorps Provisions, C., General Provisions, Item 23., Administrative Cost, states in
part:
      c. Fixed 5%. If approved on a case-by-case basis by the Corporation, the grantee
      may charge, for administrative costs, a fixed 5% of the total of the Corporation funds
      expended. In order to charge this fixed 5%, the grantee match for administrative
      costs may not exceed 10% of all direct cost expenditures. These rates may be used
      without supporting documentation and are in lieu of an indirect cost rate.

Hands On Atlanta, Inc. (HOA). HOA charged bowling and restaurant expenses to the
grant during program year 2005-2006. The grant was charged for a bowling event for 50
AmeriCorps members, and for a Thanksgiving lunch for AmeriCorps staff at Piccadilly’s
restaurant. HOA did not believe that these expenses were entertainment costs. As a result,
we questioned costs of $238.

Attachment B, Selected Items of Cost, Section 14., Entertainment Costs, states:

      Costs of entertainment, including amusement, diversion, and social activities
      and any costs directly associated with such costs (such as tickets to shows or
      sports events, meals, lodging, rentals, transportation, and gratuities) are
      unallowable.


Recommendations

We recommend that the Corporation:

    1a. Ensure that final FSRs for the 03 Formula and 03 Competitive grants reflect the
        actual amount claimed by the Commission subgrantees;

    1b. Work with the Commission to update their controls for preparing and submitting the
        FSRs;

    1c. Determine the allowability of the questioned costs and recoup unallowable costs that
        were charged to the grant, including administrative costs;

    1d. Request additional information for all costs paid to Georgia Serves to determine if the
        costs claimed are allowable;

    1e. Review all rent claimed as match by Inner Harbour and question the excess claimed
        over actual cost of ownership. After the match is limited to cost of ownership,
        determine if Inner Harbour met its match requirement.

    1f. Ensure the Commission trains and monitors its subgrantees in establishing and
        implementing controls that specifically address weaknesses identified above. This
        effort includes developing an accounting system that assures that grant costs are
        properly segregated and recorded; developing timekeeping procedures that comply
        with grant requirements; and designing controls to verify the accuracy of costs
        claimed, including match costs.
                                              25
Commission’s Response

The Commission stated the $104 expense for a Commission board meeting was incorrectly
charged by the Georgia Department of Community Affairs accounting personnel to the 2007
Administrative grant. The accounting department was made aware of the mistake and has
taken steps to prevent it from occurring in the future.

The Commission has enhanced the Department of Community Affairs financial procedures
requiring the review and approval by the supervising assistant commissioner, of
Commission payments exceeding $1,000 and will not be conducting any further business
with Georgia Serves, Inc. However, the Commission disagrees with questioning the $4,900
payment and 17 invoices, totaling $32,750, paid to Georgia Serves, Inc. The Commission
stated that these costs were for the registration of AmeriCorps program staff to attend a
conference on service and volunteerism, an allowable expense.            In addition, the
Commission has now secured all available records of Georgia Serves, Inc.

The Commission will seek guidance from the Corporation on the extent to which future
PDAT budget applications should specify expenditures and is prepared to implement any
Corporation requirements for budgets regarding the needed level of detail. However, the
Commission disagrees with questioning the conference costs of $34,287. Though the
expenditures were not specified in the original or amended Commission PDAT budgets for
2005, the conference was an annual event and was included in the Commission’s schedule
of annual activities.

For CIS, the Commission’s program has changed the method of reporting administrative
costs to comply with Corporation rules and the Commission reviews the periodic expense
reports to ensure that the administrative costs have been correctly calculated. In addition,
the Commission has provided training, prior to the 2007-2008 program year subgrant
awards, for calculating administrative costs based upon actual expenses.

The Commission stated Inner Harbour is no longer self-insured and now claims actual costs
as reported in the program’s monthly detail ledger. The Commission will ensure that
claimed costs for both the fringe benefits and rent expenses for space used by the
AmeriCorps program are based upon actual expenses. Finally, the Commission stated that
Inner Harbour will provide documentation to demonstrate the service and training nature of
the baseball tickets and bowling expenditures.

For AOB, the program has begun a full assessment of its financial spending and tracking
procedures to ensure that it is in compliance with the grant agreement and OMB standards.

For Task Force, the Commission has reviewed the requirements for claiming administrative
costs with Task Force staff and will closely monitor future reimbursements to ensure they do
not exceed the allowed rate.

The Commission will provide guidance to HOA on labeling expenses to clearly explain the
nature of the activities for which reimbursement is requested. However, the Commission
and the program stated that the costs for member team building activities were intended to
foster greater member teamwork and should not be questioned.


                                             26
Auditor’s Comment

The Corporation should consider the Commission’s proposed actions. In addition, the
Corporation should review all documentation currently available for Georgia Serves, Inc. and
Inner Harbour and HOA expenditures classified as entertainment expenditures, as these
documents were not made available to us during the audit.

Finding No. 2: Late Submission of Financial Status Reports, Member Program Forms,
Progress Reports, and Periodic Expense Reports

The Commission and the six AmeriCorps subgrantees we tested did not always submit
required reports by the due dates, as shown in the table below.

                                             Description of Non-Compliance
       Commission
 Georgia Commission for
                                   24 of 30 FSRs submitted late
 Service and Volunteerism
                                   20 of 25 PERs submitted late
        Subgrantees                10 of 10 FSRs submitted late
                                   4 of 4 progress reports submitted late
Atlanta-Fulton Public Library      7 of 7 tested enrollment forms submitted late
                                   2 of 7 tested exit forms submitted late
                                   36 of 48 PERs submitted late
                                   16 of 16 FSRs submitted late
Communities in Schools of
                                   4 of 8 progress reports submitted late
Georgia
                                   6 of 18 tested enrollment forms submitted late
                                   9 of 18 tested exit forms submitted late
                                   20 of 26 PERs submitted late
 Inner Harbour Hospitals,          10 of 10 FSRs submitted late
 Ltd.                              3 of 4 progress reports submitted late
                                   3 of 7 tested enrollment forms submitted late
                                   10 of 10 FSRs submitted late
 Atlanta Outward Bound
                                   4 of 4 progress reports submitted late
 Center
                                   3 of 7 tested enrollment forms submitted late
                                   2 of 8 FSRs submitted late
 Metro Atlanta Task Force          3 of 4 progress reports submitted late
 for the Homeless                  1 of 7 tested enrollment forms submitted late
                                   1 of 7 tested exit forms submitted late
                                   6 of 8 FSRs submitted late
 Hands On Atlanta, Inc.            12 of 25 tested enrollment forms submitted late
                                   1 of 25 tested exit forms submitted late

Reporting requirements specified in the AmeriCorps Provisions are not being followed. Late
submission of Commission FSRs precludes the Corporation from having a timely picture of
expended grant funds and match. Late reports from subgrantees preclude the Commission
from reviewing, tracking, and monitoring the subgrantees’ activities. Timely submission of
reports assists the Commission in monitoring and correcting any errors and/or deficiencies

                                              27
noted. Member enrollment and exit forms are also required to be submitted on time to
maintain the accuracy of National Service Trust Fund records.

Criteria

The cooperative agreement between the Commission and its subgrantees provide
applicable criteria, as follows:

           1. Each program must submit reimbursement requests for program
              expenses paid at least monthly. Programs must use the Web Based
              Reporting System (WBRS), utilizing the Periodic Expense Report form
              designed for this purpose. Requests must be received by 5:00PM on
              Tuesday for processing the next business day. The Commission may,
              from time to time, alter this schedule to meet staffing needs and/or
              Commission activities.

           2. Quarterly FSRs must be submitted via WBRS by specified due dates. A
              signed paper copy must also be submitted to the Commission. Due dates
              for each calendar year are October 15, January 15, April 15, and July 15.

           3. Programs are required to complete the Mid-Year and End of Year Annual
              Progress Report in WBRS. Due dates were November 3, 2004, April 15,
              2005, November 4, 2005, and April 14, 2006.

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, N, Reporting Requirements,
states in part:

            2. AmeriCorps Member Related Forms.
               a. Enrollment Forms. Enrollment forms must be submitted no later
                  than 30 days after a member is enrolled.
               b. Change of Status Forms. Member Change-of-Status Forms must
                  be submitted no later than 30 days after a member’s status has
                  changed.
               c. Exit/End-of-Term-of-Service Forms. Exit/End-of-Term-of-Service
                  Forms must be submitted no later than 30 days after a member
                  exits the program or finishes his/her term of service.

Recommendation

We recommend that the Corporation:

           2a. Work with the Commission to help streamline its FSR completion process to
               ensure that FSRs are completed and submitted within the required time frames.

           2b. Ensure and verify that the Commission implements procedures to ensure that
               financial reports, progress reports, and member forms are completed on time.

Commission’s Response

The Commission will implement a range of solutions with a goal of 100 percent on-time
submission of all reports. The Commission will also conduct an annual review of the grant
                                               28
 award to update sub-grantee deadlines and requirements and create an internal control
 procedure to track on-time report submission.

 Auditor’s Comment

 The Commission’s proposed actions are noted. The Corporation should follow-up with the
 Commission to determine whether the proposed actions were implemented and are
 effective.

 Finding No. 3 – Lack of Adequate Procedures to Ensure Program Compliance

 Subgrantees did not always comply with requirements for criminal background checks,
 member contracts, living allowance payments, member time sheets, member evaluations,
 and required service hours.

 Criminal Background Checks. All seven members tested at Task Force started their term
 of service prior to the completion of a criminal background check.

 Member Contracts. Four tested AmeriCorps subgrantees permitted members to receive
 living allowances and record hours before member service agreements were signed.

                                                     Questioned    Questioned     Questioned
     Subgrantee                Description             Living        Fringe       Education
                                                     Allowance      Benefits        Award
                         5 of 18 members tested
Communities in Schools     did not sign service
of Georgia               agreements prior to start     $1,581          $129          $7,086
                                of service
                          1 of 7 members tested
Atlanta Outward Bound      did not sign service
Center                   agreement prior to start       $468            $77          $4,725
                                 of service
                          3 of 7 members tested
Metro Atlanta Task         did not sign service
Force for the Homeless   agreements prior to start     $3,997          $632         $15,181
                                 of service
                         3 of 25 members tested
                           did not sign service                                     See note
Hands On Atlanta, Inc.
                         agreements prior to start      $569           $179          below 1
                                 of service
 1
  We did not determine whether the education awards should be questioned because the
 program year was in progress during these procedures.

 As a result, we questioned living allowances of $6,615 and related fringe benefits of $1,017
 for living allowance payments disbursed prior to the member’s signed service agreement.
 We also questioned service hours that were recorded prior to the members signing their
 service agreements. Education awards were questioned for members whose minimum
 service hours were not met after reducing the members’ total service hours by the

                                             29
      questioned service hours. Questioned education awards total $26,992, including an
      accrued interest forbearance award of $1,006.

      Living Allowance. Inner Harbour, AOB, Task Force, and HOA did not always pay member
      living allowances in equal increments. For Inner Harbour and Task Force, members were
      given half of the normal equal increment for the first living allowance payment because there
      was only a one-week pay period at the beginning of service. For AOB, living allowance
      payments were not consistent each month due to a lack of communication between the
      program manager and the accounting department. For HOA, members were given half of
      the normal equal increment for living allowance payments during Christmas and Spring
      break.

      Additionally, AFPL paid additional living allowance to one member after the member
      concluded her term-of-service. The member’s last day of service was August 12, 2005, and
      the last living allowance payment should have been September 2, 2005. However, the
      member received two living allowance payments during the month of September. As a
      result, we questioned the overpaid living allowance of $166 and related fringe benefits of
      $13.

      Member Time Sheets. Certain time sheets were not signed by an individual with oversight
      responsibilities for the members. AFPL, CIS, and Task Force did not properly approve time
      sheets , as shown in the table below.

                                                            Questioned      Questioned      Questioned
      Subgrantee                     Description              Living          Fringe        Education
                                                            Allowance        Benefits         Award

Atlanta-Fulton Public       Time sheets not approved for        $668            $51            $4,724
Library                        5 of 7 members tested


Communities in Schools      Time sheets not approved for        $177            $14            $2,362
of Georgia                    5 of 18 members tested


Metro Atlanta Task Force    Time sheets not approved for
                                                               $2,002           $153           $2,218
for the Homeless               6 of 7 members tested.

      We questioned living allowances of $2,847 and related fringe benefits of $218 for members
      whose time sheets were not signed. We also questioned service hours that were not
      properly approved. Education awards were questioned for members whose minimum
      service hours were not met after reducing the members’ total service hours by the
      questioned service hours. Questioned education awards total $9,304.

      Member Evaluations. Certain members at CIS and AOB did not receive mid-term and/or
      end-of-term evaluations. Seven of the 18 members tested at CIS did not receive an end-of-
      term evaluation. CIS stated that the Commission issued guidance that the subgrantee did
      not have to conduct mid-term and end-of-term evaluations on half-time members. Hence,
      CIS performed only one evaluation on members’ performance.


                                                   30
AOB did not conduct mid-term evaluations for two of the seven members tested, and did not
conduct end-of-term evaluations for four of the seven members tested. AOB could not
explain why member evaluations were not conducted.

Member Service Hours. Some AFPL and CIS members received education awards but did
not complete the required minimum service hours. One member at AFPL did not serve the
required 900 minimum service hours for half-time members. Per WBRS, the member’s total
service hours were 900, but time sheets totaled 852.75. Therefore, we questioned the
member’s education award of $2,362.

Two members at CIS did not serve the required 900 minimum service hours for half-time
members. Per WBRS, one member’s total service hours were 917.25, but her time sheets
totaled 889.15. The second member had 900 service hours in WBRS, but her time sheets
totaled 876. Therefore, we questioned these members’ education awards of $2,362 each.

Criteria

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, C., Member Enrollment, states
in part:

           7. Criminal Background Checks. Programs with members (18 and over) or
           grant-funded employees who, on a recurring basis, have access to children
           (usually defined under state or local law as un-emancipated minors under the
           age of 18) or to individuals considered vulnerable by the program (i.e. the
           elderly or individuals who are either physically or mentally disabled), shall, to
           the extent permitted by state and local law, conduct criminal background
           checks on these members or employees as part of the overall screening
           process.

           The grantee must ensure, to the extent permitted by state or local law, that it
           maintains background check documentation for members and employees
           covered by this provision in the member or employee’s file or other
           appropriate file. The documentation must demonstrate that, in selecting or
           placing an individual, the grantee or the grantee’s designee (such as a site
           sponsor) reviewed and considered the background check’s results.

The AmeriCorps Grant provisions, IV, AmeriCorps Special Provisions, C., Member
Enrollment, states in part:

           1. Member Enrollment Procedures.

              a. An individual is enrolled as an AmeriCorps member when all of the
                 following have occurred:

                    i. He or she has signed a member contract;
                    ii. The program has verified the individual's eligibility to serve;
                    iii. The individual has begun a term of service; and
                    iv. The program has approved the member enrollment form in
                    WBRS.


                                                  31
           b. Prior to enrolling a member in AmeriCorps, programs make
              commitments to individuals to serve. A commitment is defined as
              signing a member contract with an individual or otherwise entering
              into a legally enforceable commitment as determined by state law.

       2. AmeriCorps Members. The grantee must keep time and attendance
       records on all AmeriCorps members in order to document their eligibility for
       in-service and post service benefits. Time and attendance records must be
       signed and dated both by the member and by an individual with oversight
       responsibilities for the member.

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, I., Living allowances, Other In-
Service Benefits and Taxes, states in part:

       1. Living Allowance Distribution. A living allowance is not a wage. Programs
       must not pay a living allowance on an hourly basis. Programs should pay the
       living allowance in regular increments, such as weekly or bi-weekly, paying
       an increased increment only on the basis of increased expenses such as
       food, housing, or transportation. Payments should not fluctuate based on the
       number of hours served in a particular time period, and must cease when a
       member concludes a term of service.

AmeriCorps Provision, IV, Special Provisions, D., Training, Supervision and Support, states
in part:

       6. Performance Reviews. The grantee must conduct and keep a record of
       at least a midterm and end-of-term written evaluation of each member's
       performance for Full and Half-Time members and an end-of-term written
       evaluation for less than Half-time members. The evaluation should focus on
       such factors as:
           a. Whether the member has completed the required number of hours;
           b. Whether the member has satisfactorily completed assignments; and
           c. Whether the member has met other performance criteria that were clearly
              communicated at the beginning of the term of service.

AmeriCorps Provisions, IV, Special Provisions, E., Terms of Service, states in part:

       1. Program Requirements. Each Program must at the start of the term of
       service, establish the guidelines and definitions for the successful completion
       of the Program year, ensuring that these Program requirements meet the
       Corporation’s service hour requirement as defined below:
              b. Half-Time Members. Half-time members must serve at least 900
              hours during a period of one or two years as indicated in the approved
              budget.

Recommendations

We recommend that the Corporation ensure that the Commission:

   3a. Provides training to its subgrantees to ensure they are familiar with program
       requirements and provisions;
                                             32
   3b. Reviews each member file and compares the member contract signed date to when
       members began recording service hours;

   3c. Requires subgrantees to adhere to policies on distribution of living allowances (i.e.
       paid in equal increments);

We also recommend that the Corporation:

   3d. Determine whether education awards for the three HOA members who did not sign
       their member service agreements prior to their start of service should be disallowed;

   3e. Determine if the members earned sufficient hours during their service periods and
       disallow and recoup all education awards not earned; and

   3f. Determine the allowability of the questioned costs and recover disallowed costs and
       applicable administrative costs.

Commission’s Response

The Commission re-organized the staff and re-defined responsibilities, implemented new
monitoring procedures, hired an additional program officer, consolidated policies and
requirements, referenced them to the Provisions, and incorporated them in a new program
monitoring tool. It also compiled rules, requirements and policies in a new program
directors’ manual.    All these actions were implemented to address the above
recommendations.

In addition, the Commission has implemented the requirement for all sub-grantees to attend
pre-award conferences. These conferences will be used to make program staff personnel
familiar with all programmatic and financial requirements. The Commission conducted the
first pre-award conference and addressed all issues in the finding above.

Finally, the Commission has implemented a quarterly program site visit schedule to review
the member documentation and legal files of each funded AmeriCorps program to ensure
compliance with all requirements.

Auditor’s Comment

The Commission’s proposed actions are noted. The Corporation should follow-up with the
Commission to determine whether the proposed actions were implemented and are
effective.




Mayer Hoffman McCann P.C.
Woodbridge, Virginia
March 12, 2008

                                            33
